•>

no.

2-0In THE

Supreme Court of tlje ®nitet> States
DAVID ALAN SCHUM,

V.

I0BeWbmr(:
31 I
l I
I
M

f-

I

I
I

FORTRESS VALUE RECOVERY FUND I, L.L.C.;
SCHULTE ROTH & ZABEL, L.L.P.; LAWRENCE S. GOLDBERG;
DANIEL BERNARD ZWIRN; PERRY GRUSS;
HIGHBRIDGE/ZWIRN SPECIAL OPPORTUNITIES FUND, L.P.;
BERNARD NATIONAL LOAN INVESTORS, LIMITED,

■“FILED

Respondents

SEP 1 6 2020
@fm°efCPURTLuRsl

On Petition for a Writ of Certiorari to the
United States Court of Appeals
for the Fifth Circuit
PETITION FOR WRIT OF CERTIORARI

David A. Schum, Pro Se
4149 Lovers Lane, Apt. C
Dallas, Texas 75225
469-513-2177
Email: watchradio@aol.com
September 16, 2020

1

•V

Questions Presented
The questions presented are:
1. Whether a claim brought under Federal Rules of Civil Procedure Rule 60(d)(3) as a
result of fraud on the court by attorneys who are sworn officers of the court can be timebarred or as a result of the fraud on the court does Federal Rules of Civil Procedure Rule
60(d)(3) take precedence over all other rules with time-bars.
2. Whether it violates the doctrine of Stare Decisis when a Federal Court arbitrarily
establishes a non-specified time bar to a claim brought under Federal Rules of Civil
Procedure Rule 60(d)(3) in conflict with Supreme Court and Circuit Court precedent.

1

>
v

PARTIES TO THE PROCEEDING
All parties to the proceeding are named in the caption.
CORPORATE DISCLOSURE STATEMENT

There is no corporate disclosure required by Rule 29.6 in this case.
RELATED PROCEEDINGS
U.S. Court of Appeals for the Fifth Circuit
In the Matter of: Renaissance Radio, Incorporated, Debtor, David Alan Schum, Appellant
v. Fortress Value Recovery Fund I, L.L.C., et al., No. 20-10016 (May 18, 2020)
(affirming the judgment of the district court)

In the Matter of: Renaissance Radio, Incorporated, Debtor, David Alan Schum, Appellant
v. Fortress Value Recovery Fund I, L.L.C., et al., No. 20-10016 (June 19, 2020) (denying
Petition for rehearing and denying Petition for rehearing en banc)

U.S. District Court for the Northern District of Texas Dallas Division
David A. Schum, Appellant, v. Fortress Value Recovery Fund I LLC and Schulte Roth &
Zabel LLP, Appellees, No. 3:19-cv-00978-M (December 2, 2019) (affirming Bankruptcy
Court’s order)
U.S. Bankruptcy Court for the Northern District of Texas Dallas Division
In re: Renaissance Radio, Inc., Debtor, No. 03-33479 - BJH (Chapter 11) (April 11,
2019) (denying Schum’s motion)

U.S. Bankruptcy Court for the Northern District of Texas Dallas Division
In re: Renaissance Radio, Inc., Debtor, No. 03-33479 - BJH (Chapter 11) (January 8,
2004) (Judge Barbara Houser’s Finding of Fact and Conclusions of Law Regarding
Confirmation of Second Amended Plan of Reorganization)

ii

y
V

TABLE OF CONTENTS
Page
QUESTION PRESENTED

1

PARTIES TO THE PROCEEDING BELOW

ii

RELATED PROCEEDINGS

ii

TABLE OF CONTENTS

iii

TABLE OF AUTHORITIES

1V-V1

OPINIONS BELOW

vii

JURISDICTION

vii

STATUTORY AND REGULATORY PROVISIONS INVOLVED

Vll-X

INTRODUCTION

1-2

STATEMENT OF THE CASE

2-16

A. Legal Background

2-6

B. Proceedings Below

6-16

REASONS FOR GRANTING THE PETITION

17-22

A. The Fifth Circuit opinion creates a split among the Courts of Appeals on whether a claim
brought under Fed. R. of Civ. P. Rule 60(d)(3) as a result of fraud on the court by attorneys who
are sworn officers of the court can be time-barred.
17-21
B. The Decision Below is Wrong

.21-22

CONCLUSION

,23

CERTIFICATE OF SERVICE

.24-25

APPENDIX (page numbers shown are appendix pages)
Appendix A - Fifth Circuit Order denying rehearing (June 19, 2020)...........
Appendix B - Fifth Circuit Opinion (May 18, 2020).................................... .
Appendix C - District Court Order denying rehearing (December 23, 2019)
Appendix D - District Court Order (December 2, 2019)...............................
Appendix E - Bankruptcy Court Order (April 11, 2019)...............................
Appendix F - Bankruptcy Court Opinion (April 4, 2019).............................
Appendix G - Judge Houser Finding of Facts (January 8, 2004)...................

ui

1-3
.4-6
7
8-20
..21-23
,24-44
.45-48

TABLE OF AUTHORITIES
CASES

PAGE#

Bowie v. Maddox,

677F. Supp. 2d 276, 278 (D.D.C. 2010
Boyce’s Executors v. Grundy,
3 Pet. (28 US) 210 (1830)

1,2,22

6

Bulloch v. United States,
721 F.2d 713, 719 (10th Cir. 1983)

3,4,19

Chicago, R.I. & P. Ry. v. Callicotte,
267 F. 799, 810 (8th Cir. 1920)

22

Demjanjuk v. Petrovsky,
10 F.3d 338, 348 (6th Cir. 1993)

,22

England v. Doyle,
281F.2d 304,309 (9thCir. 1960)

21

Hazel-Atlas Glass Co. v Hartford-Empire Co.,
322 U.S. 238, 64 S.Ct. 997 (1944).....

2,3,4,18,19,20,21

Herring v. United States,
424 F.3d 384 (3rd Cir. 2005)

.4

In re Global Energies, LLC (Published),
No. 0:12-cv-61483-KMW, Justia 1411129135,call, August 15, 2014,
(Full text at ROA.20-10016.1234-1249).............................................
Lockwood v. Bowles,
46 F.R.D. 625,634 (D.D.C. 1969).........................................................
Nudd v. Burrows,
91 US 426 (1875)

5
1,2,3,19

6

Reintjes,
71 F.3d at 48

22

IV

TABLE OF AUTHORITIES
(continued)
PAGE#
Root Refining Co. v. Universal Oil Products Co.,
169 F. 2d 514. 522 (3dCir. 1948)

3,4,19

Serzysko v. Chase Manhattan Bank,
461 F.2d 699, 702 (2dCir. 1972)

3,19

Shepherd v. Am. Broad. Cos.,
62 F.3d 1469,1476-77 (D.C.Cir.1995)

22

Sununu v. Philippine Airlines, Inc.,
638 F.Supp.2d 35, 41 (D.D.C.2009)

.22

Synanon Church v. United States,
579 F.Supp. 967. 974 (D.D.C.1984)

21

Toscano v. C.I.R.,
441 F.2d 930, 936-937 (9th Cir. 1971)

4

United States v. Throckmorton,
98 US 61, 70 (1878)......

6,18

Valerio v. Boise Cascade Corp.,
80 F.R.D. 626, 640 n.10 (N.D. Cal. 1978), affdper curiam,
645 F.2d 699, 700 (9th Cir. 1981)......................................

3,19

Wilkin v. Sunbeam Corp.,
405 F.2d 165, 166 (10th Cir. 1968)

3,19

OTHER AUTHORITIES
Moore’s Federal Practice

1,2,3,4,19,21

v

FEDERAL STATUTES
11 U.S.C.
11U.S.C.
11 U.S.C.
28 U.S.C.
47 U.S.C.
47 U.S.C.
47 U.S.C.
47 U.S.C.

§ 350(b).....
§ 5020).....
§ 1144........
§ 1254(1)....
§310 (b)(1)
§ 310(b) (2).
§ 310(b) (3).
§ 310(b) (4).

22
.22
.22
viii
40
.47
.47
,47

FEDERAL RULES OF CIVIL PROCEDURE
Rule 60........
.....2,4,15,16
Rule 60(b).....
2,3,15,16,19
Rule 60(b) (2)
......... 2,3,19
Rule 60(b) (3)
2
Rule 60(c) (1)
2
Rule 60(d).....
.......................... 15,16,19
Rule 60(d) (3)
ii, 1,2,5,15,17,18,19,21,22
TEXAS DISCIPLINARY RULES OF PROFESSIONAL CONDUCT
Rule 3.03 (c) ....
Rule 8.04 (a) (3)

5,7
5,7

FEDERAL RULES OF BANKRUPTCY PROCEDURE
Rule 9024

1,2,15,16,19
SUPREME COURT RULES

Supreme Court Rule 29.5 (c)
Supreme Court Rule 29.6

24
ii

vi

PETITION FOR A WRIT OF CERTIORARI
Petitioner David A. Schum respectfully petitions for a writ of certiorari to review the
judgment of the United States Court of Appeals for the Fifth Circuit in this case.
OPINIONS BELOW
The Fifth Circuit’s opinion is unpublished.
JURISDICTION
The judgment of the Fifth Circuit was entered on May 18, 2020. The Fifth Circuit
decision to deny Schum’s petition for rehearing and rehearing en banc was entered on June 19,
2020. This Court has Jurisdiction under 28 U.S.C. § 1254(1). The filing deadline for this petition
is September 17, 2020.
STATUTORY AND REGULATORY
PROVISIONS INVOLVED
Federal Rules of Civil Procedure
Rule 60. Relief from a Judgment or Order
(a) CORRECTIONS BASED ON CLERICAL MISTAKES; OVERSIGHTS AND
OMISSIONS. The court may correct a clerical mistake or a mistake arising from
oversight or omission whenever one is found in a judgment, order, or other part of
the record. The court may do so on motion or on its own, with or without notice.
But after an appeal has been docketed in the appellate court and while it is pending,
such a mistake may be corrected only with the appellate court's leave.
(b) GROUNDS FOR RELIEF FROM A FINAL JUDGMENT, ORDER, OR
PROCEEDING. On motion and just terms, the court may relieve a party or its
legal representative from a final judgment, order, or proceeding for the following
reasons:
(1) mistake, inadvertence, surprise, or excusable neglect;
(2) newly discovered evidence that, with reasonable diligence, could
not have been discovered in time to move for a new trial under Rule
59(b);
(3) fraud (whether previously called intrinsic or
misrepresentation, or misconduct by an opposing party;
(4) the judgment is void;

Vll

extrinsic),

i

(5) the judgment has been satisfied, released, or discharged; it is based
on an earlier judgment that has been reversed or vacated; or applying it
prospectively is no longer equitable; or
(6) any other reason that justifies relief.
(c) TIMING AND EFFECT OF THE MOTION.
(1) Timing. A motion under .Rule 60(b) must be made within a reasonable time and for reasons (1), (2), and (3) no more than a year after the entry of the
judgment or order or the date of the proceeding.
(2) Effect on Finality. The motion does not affect the judgment's
finality or suspend its operation.
(d) OTHER POWERS TO GRANT RELIEF. This rule does not limit a court's power to:
(1) entertain an independent action to relieve a party from a judgment, order, or
proceeding;
(2) grant relief under 28 U.S.C. §1655 to a defendant who was not personally
notified of the action; or
(3) set aside a judgment for fraud on the court.
(e) BILLS AND WRITS ABOLISHED. The following are abolished: bills of review,
bills in the nature of bills of review, and writs of coram nobis, coram vobis, and audita
querela.
Federal Rules of Bankruptcy Procedure

Rule 9024. Relief from Judgment or Order
Rule 60 Federal Rules of Civil Procedure applies in cases under the Code except that
(1) a motion to reopen a case under the Code or for the reconsideration of an
order allowing or disallowing a claim against the estate entered without a contest
is not subject to the one year limitation prescribed in Rule 60(c),
(2) a complaint to revoke a discharge in a chapter 7 liquidation case may be filed
only within the time allowed by §727(e) of the Code, and
(3) a complaint to revoke an order confirming a plan may be filed only within the
time allowed by §1144, §1230, or §1330. In some circumstances, Rule 8008
governs post-judgment motion practice after an appeal has been docketed and is
pending.
NOTES OF ADVISORY COMMITTEE ON RULES—1983
Motions to reopen cases are governed by Rule 5010. Reconsideration of orders allowing
and disallowing claims is governed by Rule 3008. For the purpose of this rule all orders of the
bankruptcy court are subject to Rule 60 F.R.Civ.P.

vm

r'V

Rule 3008. Reconsideration of Claims
A party in interest may move for reconsideration of an order allowing or disallowing a
claim against the estate. The court after a hearing on notice shall enter an appropriate order.
Rule 5010. Reopening Cases
A case may be reopened on motion of the debtor or other party in interest pursuant to
§350(b) of the Code. In a chapter 7, 12, or 13 case a trustee shall not be appointed by the United
States trustee unless the court determines that a trustee is necessary to protect the interests of
creditors and the debtor or to insure efficient administration of the case.
NOTES OF ADVISORY COMMITTEE ON RULES—1983
Section 350(b) of the Code provides: “A case may be reopened in the court in which such
case was closed to administer assets, to accord relief to the debtor, or for other cause.” Rule
9024, which incorporates Rule 60 F.R.Civ.P., exempts motions to reopen cases under the Code
from the one year limitation of Rule 60(b).
Texas Disciplinary Rules of Professional Conduct
Rule 3.03. Candor Toward the Tribunal
(a) A lawyer shall not knowingly:
(1) make a false statement of material fact or law to a tribunal;
(2) fail to disclose a fact to a tribunal when disclosure is necessary to avoid
assisting a criminal or fraudulent act;
(3) in an ex parte proceeding, fail to disclose to the tribunal an unprivileged fact
which the lawyer reasonably believes should be known by that entity for it to
make an informed decision;
(4) fail to disclose to the tribunal authority in the controlling jurisdiction known to
the lawyer to be directly adverse to the position of the client and not disclosed by
opposing counsel; or
(5) offer or use evidence that the lawyer knows to be false.
(b) If a lawyer has offered material evidence and comes to know of its falsity, the lawyer
shall make a good faith effort to persuade the client to authorize the lawyer to correct or
withdraw the false evidence. If such efforts are unsuccessful, the lawyer shall take
reasonable remedial measures, including disclosure of the true facts.
(c) The duties stated in paragraphs (a) and (b) continue until remedial legal measures are
no longer reasonably possible.

IX

Rule 8.04. Misconduct
(a) A lawyer shall not:
(1) violate these rules, knowingly assist or induce another to do so, or do so
through the acts of another, whether or not the violation occurred in the course of
a client-lawyer relationship;
(2) commit a serious crime or commit any other criminal act that reflects
adversely on the lawyers honesty, trustworthiness or fitness as a lawyer in other
respects;
(3) engage in conduct involving dishonesty, fraud, deceit or misrepresentation;
(4) engage in conduct constituting obstruction ofjustice;
FEDERAL STATUTES
47 U.S. Code § 310 - License ownership restrictions
(b)GRANT TO OR HOLDING BY ALIEN OR REPRESENTATIVE, FOREIGN CORPORATION, ETC.

No broadcast or common carrier or aeronautical en route or aeronautical fixed radio
station license shall be granted to or held by—
(1) any alien or the representative of any alien;
(2) any corporation organized under the laws of any foreign government;
(3) any corporation of which more than one-fifth of the capital stock is owned of
record or voted by aliens or their representatives or by a foreign government or
representative thereof or by any corporation organized under the laws of a foreign
country;
(4) any corporation directly or indirectly controlled by any other corporation of
which more than one-fourth of the capital stock is owned of record or voted by
aliens, their representatives, or by a foreign government or representative thereof,
or by any corporation organized under the laws of a foreign country, if the
Commission finds that the public interest will be served by the refusal or
revocation of such license.

x

INTRODUCTION
A final judgment can be overturned by a motion, pursuant to Federal Rule of Civil
Procedure 60(d)(3), which is incorporated into the Bankruptcy Rules by Rule 9024, to vacate a
judgment based upon fraud on the court.
"Fraud on the court" is a claim that exists to protect the integrity of the judicial process, and
therefore a claim for fraud on the court cannot be time-barred. See 12 JAMES WM. MOORE
ET AL., MOORE'S FEDERAL PRACTICE § 60.2I[4][g] & n. 52 (3d ed.2009) (citing Lockwood
v. Bowles, 46 F.R.D. 625, 634 (D.D.C.1969)).’ Bowie v. Maddox, 677 F. Supp. 2d 276, 278
(D.D.C. 2010).
This case centers on a Texas bankruptcy exit loan document that was prepared in 20032004 by a New York based law firm, Schulte Roth & Zabel, LLP (“Schulte”) representing a New
York based hedge fund Highbridge/Zwim Special Opportunities Fund, L.P, (“HBZ”). The
lawyers deceived Bankruptcy Court Judge Barbara Houser, the attorneys for the business entities
and the majority owner of the businesses, David Schum (“Schum”) into believing a domestic
hedge fund, Highbridge/Zwim Special Opportunities Fund, L.P, (“HBZ”) a Delaware domiciled
limited partnership, was the lender when in actuality, the lender was a foreign illegal lender
based in the Cayman Islands, Bernard National Loan Investors, Ltd. (“BNLI”).
The contract fraud on the court was not discovered until 2012 by Schum. At the time of
the discovery, the fraud had resulted in attempted fraud on the court in a Dallas County Court,
fraud on the court in another bankruptcy proceeding, fraud on the court in a Dallas County Court
and the illegal transfer of FCC licenses from Schum’s company to a subsidiary of HBZ. The
frauds were necessary to cover up the original fraud on the court, the financial problems of HBZ
and ultimately the transfer of the FCC licenses to a company that was partially owned by
offshore entities owned and controlled by the infamous sexual predator Jeffrey Epstein who was
laundering his assets of questionable origin through HBZ.

1

Schum filed a motion under Federal Rule of Civil Procedure 60(d)(3) in the bankruptcy
court to address the fraud on the court and prevent the participants in the fraud from profiting.
The bankruptcy court ruled Schum’s motion was time-barred, the District court Affirmed the
bankruptcy court’s time-bar ruling and the Fifth Circuit upheld the District Court’s affirmation.
Schum timely filed this Petition for Certiorari.
STATEMENT
A. Legal Background
As part of the Federal Rules of Civil Procedure Congress adopted rule 60 to provide
relief from a Judgment or Order. Rule 60(b)(2) addresses newly discovered evidence and
60(b)(3) addresses fraud. Rule 60(c)(1) places a time restriction of one year for motions under
rule 60(b) for reasons (1),(2) and (3).
A final judgment can also be overturned by a motion, pursuant to Federal Rule of Civil
Procedure 60(d)(3), which is incorporated into the Bankruptcy Rules by Rule 9024, to vacate a
judgment based upon fraud on the court.
"Fraud on the court" is a claim that exists to protect the integrity of the judicial process, and
therefore a claim for fraud on the court cannot be time-barred. See 12 JAMES WM. MOORE
ET AL, MOORE'S FEDERAL PRACTICE § 60.21 [4][g] & n. 52 (3d ed.2009) (citing Lockwood
v. Bowles, 46 F.R.D. 625, 634 (D.D.C.1969)). Bowie v. Maddox, 677 F. Supp. 2d 276, 278
(D.D.C. 2010).
The issue of no time limit to seek relief for fraud on the court was addressed in a 1944
case when the Supreme Court set aside a 1932 judgment See Hazel-Atlas Glass Co. v. HartfordEmpire Co., 322 U.S. 238, 251, 64 S. Ct. 997, 88 L. Ed. 1250 (1944) ("judgment is reversed with
directions to set aside the 1932 judgment"). In Hazel-Atlas, an attorney for Hartford wrote a
spurious article which influenced a court to improperly award a patent to Hartford resulting in a
settlement agreement with Hazel for patent infringement. Hazel later discovered the fraud on the

2

court perpetrated by the attorney and twelve years after the original judgment, the Supreme
Court ordered the judgment to be set aside.
Since Hazel-Atlas, there have been cases in the circuit courts that addressed the time bar
question, most citing Hazel-Atlas. Moore’s Federal Practice cites cases from the Second, Third,
Ninth, Tenth and D.C. Circuits all ruling there is no time limit for setting aside judgments based
upon fraud on the court.
[g] No Time Limit or Laches Applies to Relief Based on Fraud on Court
Because fraud on the court concerns the integrity of the judicial process itself, a judgment may be
set aside for fraud on the court at any time. There is no time limit on any party or court.52 After
all, in the leading Hazel-Atlas case, the United States Supreme Court acted in 1944 to tell the
Third Circuit that it should set aside its 1932 judgment because it was procured by fraud on the
court.53
Many cases also imply that laches is not a defense to an action to set aside a judgment procured
by fraud on the court.54 Technically, this is undoubtedly correct. A judgment procured by fraud
on the court should not be allowed to stand solely because someone was not diligent in bringing
the fraud to the court's notice. On the other hand, in practice, courts will likely consider the delays
involved in determining whether the fraud in question is of the magnitude to constitute fraud on
the court. The greater the delay, the more deference the court is likely to give to the concept of
finality ofjudgments. As one court noted:55
As to actions for relief from fraud on the court it is generally held that the doctrine of
laches as such does not apply, but unexplained delays bear on the basic concept of the
finality ofjudgments and the proof.
S2 No time limit for setting aside judgments based on fraud on court.
2d Circuit See Serzysko v. Chase Manhattan Bank, 461 F.2d 699, 702 (2d Cir. 1972) ("no time
limit is specified" for fraud on court claims).
3d Circuit See Root Refining Co. v. Universal Oil Products Co., 169 F.2d 514. 522 (3d Cir.
1948) ("when a controversy has been terminated by a judgment, its freedom from fraud may
always be the subject of further judicial inquiry; and the general rule that courts do not set aside
their judgments after the term at which they were rendered has no application").
9th Circuit See, e.g., Valerio v. Boise Cascade Corp., 80 F.R.D. 626, 640 n.10 (N.D. Cal. 1978),
affd per curiam, 645 F.2d 699, 700 (9th Cir. 1981) ("There is no statute of limitations for fraud
on the court").
10th Circuit See, e.g, Bulloch v. United States. 721 F.2d 713, 719 (10th Cir. 1983) ("Rule 60(b)
does not impose a time limit on motions asserting fraud on the court"); Wilkin v. Sunbeam Corp,
405 F.2d 165, 166 (10th Cir. 1968) (although motion under Fed. R. Civ. P. 60(b)(2) was
untimely, appellate court remanded matter for reconsideration on theory of fraud on court, for
which there is no time limit).
D.C. Circuit See, e.g, Lockwood v. Bowles. 46 F.R.D. 625, 634 (D.D.C. 1969) ("the law favors
discovery and correction of corruption of the judicial process even more that it requires an end to
lawsuits").

3

53 Example of United States Supreme Court setting aside 12-year-old Judgment for fraud on court.
See Hazel-Atlas Glass Co. v. Hartford-Empire Co., 322 U.S. 238, 251, 64 S. Ct. 997, 88
L. Ed. 1250 (1944) ("judgment is reversed with directions to set aside the 1932 judgment").
54 Laches Is not defense to action to set aside based on fraud on court.
See Hazel-Atlas Glass Co. v. Hartford-Empire Co., 322 U.S. 238, 246, 64 S. Ct. 997, 88 L. Ed.
1250 (1944) (the Circuit Court . . . thought that Hazel had not exercised proper diligence in
uncovering the fraud and that this should stand in the way of relief....But even if Hazel did not
exercise the highest degree of diligence Hartford's fraud cannot be condoned for that reason
alone").
3d Circuit See Root Refining Co. v. Universal Oil Products Co., 169 F.2d 514. 525 (3d Cir.
1948) ("it is of no moment that Whitman's application may not have been promptly presented
after it was informed as to the facts").
9th Circuit See Toscano v. C.I.R, 441 F.2d 930, 936-937 (9th Cir. 1971) ("The Commissioner
also argues that . . . there was 'gross neglect' in not filing the motion sooner ....As to . . .
[this] argument, what the Supreme Court said in Hazel-Atlas ... is pertinent").
ss While laches is not defense, unexplained delays may help convince court that there is no fraud
amounting to fraud on court.
See Bulloch v. United States, 721 F.2d 713, 719 (10th Cir. 1983) (Plaintiffs waited 25 years
before bringing action to set aside judgment). § 60.21 [4][g] MOORE'S FEDERAL PRACI1CE
3D 60-66,67.
The Courts are in agreement that since fraud on the court involves sworn officers of the
court and this type of fraud undermines the ability of the courts to make fair and impartial
decisions, there cannot be a time limit on when an action can be brought before the court. This is
exemplified by the Third Circuit’s willingness to examine a 50-year-old settlement agreement to
determine if it was based upon fraud on the court. Herring v. United States, 424 F.3d 384 (3rd
Cir. 2005) (analyzing the merits of a Rule 60 action to set aside a 50-year-old settlement
agreement on the grounds that the settlement was procured by fraud on the court).
Fraud on the court involves sworn officers of the court including judges, attorneys and
others that may be included. In all adversarial proceedings, litigants have a duty of full disclosure
and honesty with the Court. Attorneys take an oath that in part requires them to “conduct myself
with integrity and civility in dealing and communicating with the court and all parties.”
Texas Disciplinary Rules of Professional Conduct lay out the rules that attorneys must
abide by in order to maintain the integrity of the judicial system as well as maintain their license

4

to practice law. The Texas Rules are similar if not exactly the same as the rules in the other
states. Attorneys are forbidden to “engage in conduct involving dishonesty, fraud, deceit or
misrepresentation” (see Texas Disciplinary Rules of Professional Conduct rule 8.04 (a)(3)) and
they are obligated to disclose any fraud “until remedial legal measures are no longer
reasonably possible” (see Texas Disciplinary Rules of Professional Conduct rule 3.03 (c)).
Schum’s motion under Federal Rules of Civil Procedure Rule 60(d)(3) claiming fraud on
the court was filed in the Bankruptcy Court that presided over the RRI bankruptcy seeking to
reopen the bankruptcy case, disallow the claims for attorney fees paid to Schulte as well as
interest and fees paid to HBZ. Schum asked for interest and penalties to be paid in addition to the
damages. Schum’s motion did not seek to have the reorganization plan revoked. Schum’s motion
was supported with a sworn affidavit and record evidence. The Eleventh Circuit Court
recognized the need to not allow those that intentionally and maliciously commit fraud and fraud
on the court to benefit or profit from fraudulent contracts or actions. In Global Energies,LLC the
Eleventh Circuit Court did not take the attorney’s (Pugatch) unprofessional conduct lightly when
the court ruled:
“The bankruptcy court then shall conduct any hearings necessary in the exercise of all its powers
at law or in equity and issue appropriate orders or writs, including without limitation orders
requiring an accounting and disgorgement, orders imposing sanctions, writs ofgarnishment and
attachment, and the entry ofjudgments to ensure that Chrispus, Juranitch, Tarrant, and Pugatch
do not profitfrom their misconduct and abuse of the bankruptcy process. ” In re Global Energies,
LLC (Published), No. 0:12-cv-61483-KMW, Justia 1411129135,call, August 15, 2014.

The domicile of the lender for the Financing Agreement was a major element of the
contract and of utmost importance. The lower court’s finding that it was immaterial is clearly in
error. Schulte went to great lengths in the RRI bankruptcy to make false representations as to the
identity of the lender. Schulte identified the lender as BNLI after the Court had approved the
Reorganization Plan which identified HBZ as the lender. Schulte intentionally did not disclose

5

BNLI to the Court or the domicile to anyone involved including the court. The use of a foreign
lender was prohibited by Schum and the switch to an illegal foreign lender was an act of fraud
and Schulte was the architect of the switch and the fraud on the court.
There is a legal maxim that dates back centuries “Fraus omnia vitiate, “Fraud vitiates
everything.” The US Supreme Court has ruled in 3 separate cases to uphold the common law
maxim: Fraud Vitiates Everything. Those cases are: Nudd v. Burrows, 91 US 426 (1875), “Fraud
destroys the validity of everything into which it enters” Boyce’s Executors v. Grundy, 3 Pet. (28
US) 210 (1830), “Fraud vitiates everything” United States v. Throckmorton, 98 US 61, 70 (1878)
“Fraud vitiates the most solemn contracts, documents and even judgments”
It only makes sense that there would be no time bar for fraud on the court claims since
they involve corrupt and unethical conduct on the part of sworn officers of the court. The
attorneys mandate to disclose fraud must never expire. Judges and opposing attorneys rely on
lawyers acting honestly and when they don’t, as in this case, where the attorneys didn’t just turn
a blind eye to fraud, but in fact they conceded they were the architects of the fraud, the entire
legal process was corrupted.
B. Proceedings Below
The Supreme Court and five of the Circuit Courts have ruled over the last 75 years that
there is no time limit for setting aside judgments based upon fraud on the court. Since fraud on
the court involving attorneys that are sworn officers of the court undermines the integrity of the
judicial process itself, the courts have ruled that a judgment may be set aside for fraud on the
court at any time.
Attorneys are sworn officers of the court and take an oath in Texas that in part requires
them to “conduct myself with integrity and civility in dealing and communicating with the court

6

and all parties.” The attorneys are also subject to the Texas Disciplinary Rules of Professional
Conduct when practicing law an the State of Texas which is similar if not exactly the same as
those rules for all other states. The rules state in part: Attorneys are forbidden to “engage in
conduct involving dishonesty, fraud, deceit or misrepresentation” (see Texas Disciplinary
Rules of Professional Conduct rule 8.04 (a)(3)) and they are obligated to disclose any fraud
“until remedial legal measures are no longer reasonably possible” (see Texas Disciplinary
Rules of Professional Conduct rule 3.03 (c)).
At the center of the case at hand is a bankruptcy exit loan document (“Financing
Agreement”) prepared by a New York based law firm, Schulte Roth & Zabel, LLP (“Schulte”).
Schulte represented New York based hedge fund Highbridge/Zwim Special Opportunities Fund,
L.P, (“HBZ”) a Delaware domiciled limited partnership. HBZ changed its name to D.B. Zwim
Special Opportunities Fund, L.P. (“DBZ”) in 2004 following the execution of the Financing
Agreement. The management of DBZ, headed up by Daniel Bernard Zwim, was removed for
“financial irregularities” in 2009 and the fund became known as Fortress Value Recovery Fund I
LLC (“Fortress”) with Fortress VRF I LLC the managing member. Fortress is also domiciled in
Delaware and is managing the liquidation of the fund at the direction of the limited partners.
David A. Schum (“Schum”) is the majority owner of Renaissance Radio, Inc. (“RRI”).
RRI was forced into Chapter 11 bankruptcy in April 2003 by a group of former employees and
small investors who filed an involuntary bankruptcy petition. The RRI reorganization plan
created a new entity, The Watch, Ltd. (“The Watch”) which Schum is the majority owner of.
RRI is a limited partner in The Watch and Schum still owns controlling interest in RRI.
An integral part of the RRI reorganization plan was the Financing Agreement. As is
standard in the broadcast industry, Schum specified the lender(s) under the Financing Agreement

7

had to be qualified domestic lenders and the domestic lender specification was required and not
negotiable. HBZ was the lender for a $1,000,000 DIP loan to RRI. HBZ also wanted to be the
exit loan lender and the DIP loan included a “break-up fee” of $1,000,000 in the event RRI
secured exit financing from any source other than HBZ. Schum was required to provide a
personal guarantee on the Financing Agreement.
A hearing was held on January 12, 2004 before Bankruptcy Court Judge Barbara Houser
to approve the RRI Chapter 11 plan. Schulte prepared a draft of the Financing Agreement and
presented it to the attorneys for RRI and Bankruptcy Court Judge Barbara Houser, for their
approval as an integral part of the Renaissance Radio, Inc. Chapter 11 Reorganization Plan. The
Financing Agreement indicated the lender to be HBZ and Judge Houser issued Findings of Facts
and Conclusions of Law designating HBZ to be the lender/agent. HBZ represented to the court
and to Schum that they may assign the loan to a wholly owned domestic subsidiary for internal
accounting purposes.
Notwithstanding the fact that Schum prohibited the use of a foreign lender, the loan
document drafted by Schulte and presented to the judge as well as the final Financing Agreement
included a contractual obligation to disclose the use of a foreign lender which needed to be
identified no later than the effective date, February 5, 2004, and proof given as to the tax
withholding status with the IRS. Article II “The Term Loan” Section 2.09 “Taxes” (c) of the
Financing Agreement that was before the court states:
“Each Lender that is organized in a jurisdiction outside the United States hereby agrees
that it shall, no later than the Effective Date .... (and from time to time thereafter upon the
reasonable request of the Borrower or the Agent, but only if such Lender is legal ly able to do so),
deliver to the Borrower and the Agent either
two accurate, complete and signed copies of either (x) U.S. Internal Revenue
(0
Service Form W-8EC1 or successor form, or (y) U.S. Internal Revenue Service.
Form W-8BEN or successor form, in each case, indicating that such Lender is on
the date of delivery thereof entitled to receive payments of interest hereunder free

8

(ii)

from, or subject to a reduced rate of, withholding of United States Federal
income tax or
.... and (y) two accurate, complete and signed copies of U.S. Internal Revenue
Service Form W-8BEN or successor form.”

Schulte purposely did not make the required disclosure at the hearing before Judge
Houser or at the closing of the loan which prevented Schum and the RRI attorney from
presenting the case to Judge Houser that a foreign lender was not acceptable. Schulte’s
intentional fraudulent misrepresentation of an important issue of the contract, specifically the
domicile of the lender BNLI, was part of a scheme that improperly influenced the Court in
approving the plan using a prohibited foreign lender against Schum’s directive.
Following Judge Houser’s approval of the Financing Agreement and on the date of
closing the loan, February 5, 2004, Schulte presented the final version of the Financing
Agreement for execution at the offices of the attorney for RRI and The Watch. Schum signed the
Financing Agreement on behalf of the borrower, The Watch, as well as signing as personal
guarantor as required.
Six weeks following the closing of the loan, the exit loan closing binders were delivered
to Schum on March 19, 2004 from the attorney for The Watch, Ltd. stating: “Enclosed are the
closing binders for the Highbridge/Zwirn Special Opportunities Fund, L.P. loan to The
Watch, Ltd. dated as of February 5, 2004.” The Execution Version of the Financing Agreement
is 150 pages long with an additional 131 pages of exhibits for a total of 281 pages.
On page 103 of the Financing Agreement, Highbridge/Zwirn Special Opportunities Fund,
L.P. is shown to be the agent and lender which was signed by Daniel Zwim (“Zwim”) and
Bernard National Loan Investors, Ltd. (“BNLI”) is identified as lender which was signed by
Perry Grass (“Grass”). The document does not designate the domicile of BNLI.

9

On page 105 of the Financing Agreement, Schedule 1.01(A), it designates BNL1 as the
only lender, does not indicate HBZ as a participating lender and does not designate the domicile
of BNLI. Schedule 1.01(A) was never included in the red line versions of the Agreement
including the one that was approved by Judge Houser. Pages 103 and 105 are the only two places
in the document that mention BNLI, the only lender involved with the exit loan, and the domicile
is never revealed.
At the time of the Financing Agreement, HBZ was a fairly new hedge fund and not much
was known about them. It soon became apparent to all that did business with them that their
business model was predatory lending with the intention to “harvest assets” as they described it
to their investors.
The events that followed the RRI bankruptcy proceeding where the initial fraud on the
court at the hands of Schulte occurred were not before the Bankruptcy Court in Schum’s Motion
that is the subject of this appeal. That being said, the following demonstrate and put into context
how the RRI contract fraud on the court was just the beginning of a carefully executed scheme
leading to several other fraud on the court actions by the attorneys for DBZ.
In the spring of 2005, a DBZ employee informed Schum that The Watch was in violation
of one or more of the covenants in the Financing Agreement. In May 2005, attorneys with the
Dallas office of Vinson & Elkins (V&E), representing DBZ, filed an Application for
Appointment of a Receiver in the District Court of Dallas County, Texas 191st Judicial District.
A hearing was set for 10:00 AM on May 26, 2005 and the case was titled D.B. Zwim Special
Opportunities Fund, L.P., Plaintiff, v. The Watch, Ltd., Defendant. The case number is 0505153-J. V&E fraudulently represented to the County Court that DBZ was the lender under the

10

Financing Agreement and had the right to apply to have a receiver appointed. There was no
mention of BNLI.
Heeding the advice of a consultant, Schum sought the same counsel that represented RRI
in its bankruptcy to file for Chapter 11 Bankruptcy protection for The Watch to prevent the
appointment of a receiver. The case was assigned to the same judge that presided over the RRI
bankruptcy, Judge Barbara Houser, case #05-35874-bjh
In the bankruptcy proceeding for The Watch, V&E entered a “Notice of Secured
Creditors Debt Balance and Intention to Credit Bid At Auction” claiming DBZ was the RRI
Financing Agreement lender and the only secured credit holder. Again, the attorneys for DBZ,
now with V&E, fraudulently represented to the same Bankruptcy Court Judge that presided over
the RRI bankruptcy, Judge Barbara Houser, that DBZ was the lender under the Financing
Agreement and had the right to credit bid at the auction. There was no mention of BNLI and
Judge Houser along with everyone else involved were under the impression that DBZ was the
lender.
DBZ was allowed to fraudulently win the auction for The Watch assets including the
FCC radio licenses and they were allowed to designate their “affiliate” Bernard Dallas LLC as
the buyer of the assets of The Watch under the Sales Approval Order on December 29, 2005
prior to the application to the FCC for license transfer. A requirement to even bid at the auction
let alone win it was the person or entity must have been qualified to be a FCC licensee. As it was
later discovered, neither BNLI nor HBZ were qualified to be FCC licensees (see 47 U.S. Code §
310 (b) (1), (2), (3) and (4)) and only HBZ, BNLI and their attorneys were aware of the fact.
DBZ then made application to the FCC for the license transfers on January 17, 2006. As
part of the application, it was necessary for DBZ to disclose the ownership including that of DBZ

11

the purported winner of the licenses at The Watch bankruptcy auction. The disclosure reveals 0%
of the DBZ ownership. There was no mention of BNLI. As a result of HBZ and their attorneys
actions and refusal to disclose the ownership, Schum and several other equity holders of The
Watch filed an objection to the transfer of the licenses at the FCC.
In 2006 DBZ by their attorneys at V&E sued Schum on the personal guarantee of the
Financing Agreement fraudulently claiming once again that DBZ was the lender under the
Financing Agreement. DBZ was awarded a judgment against Schum in the amount of
$3,572,373.11 plus post-judgment interest at the rate of 8.25%. DBZ filed a motion to reopen the
RRI bankruptcy case on August 3, 2006. The case against Schum in State Court is titled D.B.
Zwim Special Opportunities Fund, L.P. Plaintiff v. David A. Schum, Defendant and is Cause #
DC-05-05619 in the District Court of Dallas County 116th Judicial District. In April 2019 DBZ,
now Fortress, keeping the fraud going, was granted a Writ of Scire Facias to revive the judgment
against Schum after 12 years. There was no mention of BNLI.
In the Fall of 2012, Schum discovered a decision dated March 1, 2010, in case # 08 Civ.
3573 (DLC) in the New York Court where the judge’s finding of facts states BNLI was a foreign
company domiciled in the Cayman Islands. The fact that BNLI was a Cayman Island company
was confirmed in the Price Waterhouse Cooper 2004 audited financial statement for the DBZ
which was included as an Exhibit in a lawsuit filed in 2011 by the SEC against the CEO for DBZ
Perry Gruss. The SEC suit against Grass was the result of an SEC investigation of DBZ and was
filed in the United States District Court Southern District of New York, case # 11 Civ. 2420
(RWS).
The April 8, 2011 complaint filed by the SEC outlines HBZ’s financial problems in 2004
and thereafter. Included in the SEC complaint was a description of DBZ not having any funds to

12

pay their bills or fund the loans and investments they had negotiated but they had an offshore
hedge fund, D.B. Zwim Special Opportunities Fund, Ltd. which had plenty of money to invest
but no opportunities to invest legally. The management of DBZ devised a scheme to transfer
moneys from the offshore fund to the onshore fund as undocumented inter-fund loans. The
moneys were often transferred directly from the offshore account to the borrowers without even
“cleaning” the money through the onshore account. This accounting scheme that DBZ used did
not affect this case as DBZ used BNLI as the illegal lender. The unethical if not illegal
accounting scheme did ultimately lead to the demise of DBZ as the limited partners moved to
remove Daniel Bernard Zwim and his management team from the hedge fund and to have
Fortress liquidate the fund.
The record reflects only HBZ/DBZ/Fortress and their attorneys at Schulte and later
Vinson & Elkins (“V&E”) knew that foreign lender BNLI was the only lender in the RRI
Financing Agreement and they did not disclose the domicile of the lender intentionally. The
attorneys knew the use of the foreign lender was not permissible and would void the contract and
as a result, the fraud on the court strategy was carried into four other legal proceedings.
In 2010, a limited partner in DBZ was involved with an arbitration proceeding with
Daniel Zwim and his companies regarding alleged fraud and misrepresentations. The limited
partner companies are Financial Trust Company, Inc. and Jeepers, Inc. and the domicile is not
shown for the two companies indicating they are foreign companies. The two companies were
owned and controlled by Jeffrey Epstein. Jeffrey Epstein was the notorious convicted felon sex
offender that died August 10, 2019 in the Metropolitan Correctional Center in New York City.
An exhibit in the Epstein/DBZ arbitration proceeding is an affidavit of Glenn Dubin which
identifies two of the limited partners in DBZ. Mr. Dubin declares that he “invested my personal

13

and family foundation assets with Zwim.” He also verifies that Epstein’s company, Financial
Trust Company, Inc., was an investor in DBZ.
The reasons for DBZ and their attorneys at Schulte and V&E to go to such unethical and
fraudulent lengths to cover up the identity and domicile of the lender in the Finance Agreement
became clear to Schum after he discovered the multiple lawsuits involving DBZ. Despite the fact
that they were marketing themselves as a multi-billion dollar hedge fund they did not have the
wherewithal to fund the deals they had solicited with legal on-shore resources. Their employees,
limited partners, loan brokers and “the street” in general were not aware of the predicament they
were in and they were willing to commit fraud on the court to conceal the situation from
everyone.
In addition, DBZ was a predator lender and they were after the FCC licenses that were
owned by The Watch. 47 U.S. Code § 310(b)(2), (3) and (4) prohibited BNLI from owning
licenses as they were a foreign company and prohibited DBZ from owning licenses as it appears
that Epstein’s companies were offshore and represented over 20% of the DBZ equity. As it later
became known, Epstein’s felony sexual predator status is prohibited from FCC licensee
ownership and FCC licensees are prohibited from laundering money which Epstein was using
DBZ to do.
After becoming aware of the unethical and fraudulent accounting practices at DBZ, the
limited partners voted Daniel Bernard Zwim and his management team out in May 2009 and
replaced Zwim with Fortress. The information that has surfaced since then points to Epstein
using DBZ to launder his funds from unknown sources to try to legitimize his holdings.
The main assets of RRI and then The Watch were FCC licenses to two radio stations in
the Dallas/Ft. Worth Texas market, the fifth largest market in the country. It became apparent

14

and publicly known after Schum and RRI executed the Finance Agreement that the business
model for DBZ was that of a predator lender and they were after the assets of RRI.
On December 28, 2018 Schum filed a motion under Federal Rules of Civil Procedure
Rule 60(d)(3) claiming fraud on the court in the Bankruptcy Court that presided over the RRI
bankruptcy seeking to reopen the bankruptcy case, disallow the claims for attorney fees paid to
Schulte as well as interest and fees paid to HBZ. Schum asked for interest and penalties to be
paid in addition to the damages. Schum’s motion did not seek to have the reorganization plan
revoked. Schum’s motion was supported with a sworn affidavit and record evidence.
On February 20,2019, a hearing was held in front of visiting judge Douglas Dodd. At the
hearing, Judge Dodd confronted Schum with the possibility that Schum’s motion was time
barred which came as a surprise to Schum. The Bankruptcy Court entered the Memorandum
Opinion on April 4, 2019 and entered the final Order on April 11, 2019 finding among others
that BNLI was the only lender under the Financing Agreement and “Schum’s claims are time
barred.”
Schum timely appealed the Bankruptcy Court decision to the United States District Court
for the Northern District of Texas Dallas Division. The District Court ruled: “The bankruptcy
court denied Appellant’s Motion, finding his allegations regarding the domicile of BNLI were
time-barred and insufficient under Federal Rules 60(b) and 60(d).” “Accordingly, its Order
denying Appellant’s Motion to reopen the RRI bankruptcy proceeding under Bankruptcy Rule
9024 and Federal Rule 60 is AFFIRMED.” The District Court also found BNLI to be the only
lender for the financing agreement.
Schum timely appealed the District Court decision to the Fifth Circuit Court of Appeals.
Schulte appeared in the Bankruptcy Court and the District Court pro hac vice and filed Joinder

15

Agreement’s with Fortress’s filings. In the Fifth Circuit proceeding, Schulte appeared
representing themselves and Lawrence S. Goldberg. Schulte and Fortress filed separate appellee
briefs at the Fifth Circuit. Schulte and Fortress conceded and did not challenge several critical
points in their briefs including:
1. The record shows Schum made a contract requirement that a domestic lender be used
and that requirement was absolutely not negotiable.
2. The record shows Schulte was the only source of information regarding the Financing
Agreement for Schum, the attorneys for RRI and The Watch and for Judge Houser.
3. The record shows BNLI was ultimately the only lender for the Financing Agreement.
4. The record shows BNLI was not a domestic company but was a foreign company
domiciled in the Cayman Islands
5. The record shows Schulte purposely never disclosed the domicile of BNLI.
6. The record shows companies owned by Jeffrey Epstein were major limited partners in
DBZ and are domiciled outside the U.S. making them foreign companies.
The Fifth Circuit stated “the relief that Schum seeks requires a revocation of the RRI
confirmation order.” As Schum explained earlier, he did not seek to revoke the confirmation
order. The Fifth Circuit also ruled “The district court properly affirmed the bankruptcy court’s
ruling that Schum’s motion was time-barred under Federal Rule of Bankruptcy Procedure 9024
and Federal Rule of Civil Procedure 60.” “Schum alleges that he discovered the information
giving rise to his claims in 2012, at least six years before he filed his motion in bankruptcy court.
This precludes relief under Federal Rule of Bankruptcy Procedure 9024 and Federal Rule of
Civil Procedure 60(b) and (d).”
Schum timely filed this Petition for Certiorari.

16

REASONS FOR GRANTING THE PETITION
A. The Fifth Circuit opinion creates a split among the Courts of Appeals on whether
a claim brought under Federal Rules of Civil Procedure Rule 60(d)(3) as a result of
fraud on the court by attorneys who are sworn officers of the court can be timebarred.
The undisputed evidence in the underlying case shows that Schulte did not just
participate in a fraud but actually were the architects of the fraud on the court. Schulte conceded
in their reply brief at the Fifth Circuit that they were the author of the Finance Agreement and
were the sole source of information regarding the identity of the lender to the Bankruptcy Court,
Schum and the attorneys for RRI and The Watch. Schulte conceded they had knowledge that
BNLI was the sole lender and they were domiciled in the Cayman Islands. Schulte conceded they
purposely did not disclose the domicile of BNLI to Judge Houser, to Schum or to the attorneys
representing RRI and The Watch. Schulte conceded that there was a contractual obligation in the
Finance Agreement that required disclosure of the foreign lender prior to closing of the loan and
that disclosure was never made.
The record evidence shows Schulte had a long term relationship with HBZ as they were
the firm that drafted the HBZ partnership agreement in 2003, the RRI DIP loan and the RRI
Finance Agreement documents in 2003-2004 and were involved with an internal investigation of
DBZ when the financial problems were exposed in 2008.
The undisputed evidence before the courts below reveals how Schum discovered the
fraud, how he disclosed the discovery to the attorneys for Fortress at V&E, how he disclosed the
discovery to the staff at the FCC and finally how Schum followed proper procedure to file the
Motion in Bankruptcy Court to address the fraud on the court accompanied by evidence and

17

sworn affidavit. It also reveals that Schum was advised by the attorneys for The Watch and the
equity holders of The Watch to wait until the FCC proceedings were completed before bringing
the fraud on the court to the attention of the bankruptcy court. The FCC proceedings were
completed in the spring of 2018.
The Fifth Circuit’s holding in this matter is contrary to the view of a majority of circuits
that considered the issue. The other circuits view is that a motion brought under Federal Rules of
Civil Procedure Rule 60(d)(3) for fraud on the court is not time-barred. The other circuits almost
always cite Hazel-Atlas in arriving at their decisions.
1. The Hazel-Atlas Glass Co. v Hartford-Empire Co. decision sets forth a clear
interpretation of the time-bar issue in a case that involved fraud on the court in a District Court,
the Third Circuit Court of Appeals and the U.S. Patent Office. This Court described the multi­
level fraud here:
“Every element of the fraud here disclosed demands the exercise of the historic power of equity to set
aside fraudulently begotten judgments. This is not simply a case of a judgment obtained with the aid of a
witness who, on the basis of after-discovered evidence, is believed possibly to have been guilty of
perjury. Here, even if we consider nothing but Hartford's sworn admissions, we find a deliberately
planned and carefully executed scheme to defraud not only the Patent Office but the Circuit Court of
Appeals. Cf. Marshall v. Holmes, supra. Proof of the scheme, and of its complete success up to date, is
conclusive. Cf. United States v. Throckmorton, supra.” Hazel-Atlas Glass Co. v Hartford-Empire
Co.,322 U.S. 238, 64 S.Ct. 997(1944).
and here:
“From there the trail of fraud continued without break through the District Court and up to the
Circuit Court of Appeals. Had the District Court learned of the fraud on the Patent Office at the
original infringement trial, it would have been warranted in dismissing Hartford's case.” Id.
Having established the nature of the fraud this Court addressed the time element of the
action:
“We have, then, a case in which undisputed evidence filed with the Circuit Court of Appeals in a
bill of review proceeding reveals such fraud on that Court as demands, under settled equitable
principles, the interposition of equity to devitalize the 1932 judgment despite the expiration of the
term at which that judgment was finally entered.” Id.
18

Since the 1944 Hazel-Atlas decision the other circuit courts have addressed the time-bar
issue of fraud on the court actions as outlined in Moore’s Federal Practice:
2d Circuit See Serzysko v. Chase Manhattan Bank, 461 F.2d 699, 702 (2d Cir. 1972) ("no time
limit is specified" for fraud on court claims).
3d Circuit See Root Refining Co. v. Universal Oil Products Co., 169 F.2d 514. 522 (3d Cir.
1948) ("when a controversy has been terminated by a judgment, its freedom from fraud may
always be the subject of further judicial inquiry; and the general rule that courts do not set aside
their judgments after the term at which they were rendered has no application").
9th Circuit See, e.g., Valerio v. Boise Cascade Corp., 80 F.R.D. 626, 640 n.10 (N.D. Cal. 1978),
affd per curiam, 645 F.2d 699, 700 (9th Cir. 1981) ("There is no statute of limitations for fraud
on the court").
10th Circuit See, e.g., Bulloch v. United States. 721 F.2d 713, 719 (10th Cir. 1983) ("Rule 60(b)
does not impose a time limit on motions asserting fraud on the court"); Wilkin v. Sunbeam Corp.,
405 F.2d 165, 166 (10th Cir. 1968) (although motion under Fed. R. Civ. P. 60(b)(2) was
untimely, appellate court remanded matter for reconsideration on theory of fraud on court, for
which there is no time limit).
D.C. Circuit See, e.g., Lockwood v. Bowles. 46 F.R.D. 625, 634 (D.D.C. 1969) ("the law favors
discovery and correction of corruption of the judicial process even more that it requires an end to
lawsuits").

None of the Courts below have cited a case to show precedent for their finding that
Schum’s motion brought under Federal Rules of Civil Procedure Rule 60(d)(3) for fraud on the
court is time-barred.
2. The courts below including the Fifth Circuit were troubled by the amount of time
Schum took to reveal the fraud on the court to the Bankruptcy Court.
“Schum alleges that he discovered the information giving rise to his claims in 2012, at least six
years before he filed his motion in bankruptcy court. This precludes relief under Federal Rule of
Bankruptcy Procedure 9024 and Federal Rule of Civil Procedure 60(b) and (d).”

Schum is acting pro se in this case. Michael Barragan, the attorney that was representing
Schum in actions regarding this case died on April 24, 2011, 18 months prior to Schum’s
discovery of the fraud. Mr. Barragan was a sole practitioner and did not have an attorney to carry
on with his practice. Schum sought to have an attorney represent him and as a matter of fact
found out about the existence of Federal Rule of Civil Procedure 60(d) from an attorney in

19

another city that was unable to represent Schum. Another law firm that claims experience in
legal malpractice declined Schum’s case saying “I see they were not your counsel. You cannot
sue them if they were not representing you.”
At the hearing in the Bankruptcy Court before visiting Judge Dodd from Louisiana, the
following exchange took place:
MR. SCHUM: Good. Thank you. As you know, I am pro se in this case.
THE COURT: Right.
MR. SCHUM: And THE COURT: And you know, though, despite the fact that you're pro se, you're held to
the standards of an attorney, right?

Schum had to research the law and at the same time figure out what happened at DBZ
and why they and their attorneys at Schulte and V&E were so deceitful in their dealings with the
courts. The Courts below have ignored Schulte’s contractual obligation to disclose the relevant
information about the domicile of BNLI. In addition, the Courts did not hold the attorneys
accountable for the ethical obligation of Schulte due to their oath as attorneys and the code of
ethics for all attorneys and their legal responsibility to not be involved with fraud on the court. It
is a result of Schulte’s and V&E’s actions that this fraud has lasted this long. The Courts want to
hold Schum responsible for their unethical actions.
Instead of Schum being held to the standards of an attorney, the Courts have allowed the
fraud to continue, ignored Schulte’s responsibilities and held Schum to a standard that is
unprecedented and undefined.
This Court addressed the time and effort defense in Hazel-Atlas:
“The Circuit Court did not hold that Hartford's fraud fell short of that which prompts equitable
intervention, but thought Hazel had not exercised proper diligence in uncovering the fraud and
that this should stand in the way of its obtaining relief. We cannot easily understand how, under
the admitted facts, Hazel should have been expected to do more than it did to uncover the fraud.
But even if Hazel did not exercise the highest degree of diligence Hartford's fraud cannot be

20

condoned for that reason alone.” Hazel-Atlas Glass Co. v Hartford-Empire Co., 322 U.S.
238, 64 S.Ct. 997(1944).
The Courts below did not like Schum’s “delay” in bringing the Federal Rules of Civil
Procedure Rule 60(d)(3) motion for fraud on the court before the Bankruptcy Court and
wrongfully ruled the motion was time-barred. At the same time, the District court, at the request
of V&E, ruled Schum to be a vexatious litigant for filing the motion in the Bankruptcy Court. In
summary, Schum was wrong for not filing the motion earlier and wrong for filing the motion at
all. Time-barring Schum’s motion conflicts with this court’s precedent as well as that of the other
circuits.
B. The Decision Below is wrong.
In its opinion below, the Fifth Circuit ignored the well-established precedent of the other
Circuit Courts and the Supreme Court. Under the doctrine of stare decisis, courts are expected to
follow their own previous rulings and also the rulings from higher courts within the same court
system. None of the Courts below site any precedent upon which they ruled Schum’s 60(d)(3)
motion for fraud on the court was time barred.
Clearly, taking into account the concessions made by Schulte (see above) the series of
frauds on the court starting with the fraud on the court that Schulte designed and executed in the
RRI bankruptcy that is before this court, demonstrates the required elements needed for a
successful claim of fraud on the court. The record leaves no doubt that fraud on the court
occurred.
“Although the requirements for a successful claim of fraud on the court elude precise definition,
several guiding principles emerge from the case law. First, the fraud must be egregious."'Fraud
upon the court* . . . embrace[s] only that species of fraud which does or attempts to subvert the
integrity of the court itself, or is a fraud perpetrated by officers of the court so that the judicial
machinery cannot perform in the usual manner its impartial task of adjudging cases that are
presented for adjudication, and relief should be denied in the absence of such conduct." Synanon
Church v. United States. 579 F.Sudp. 967. 974 (D.D.C.1984) (quoting 7 MOORE ET AL.,
FEDERAL PRACTICE H 60.33 (1995)); see also England v. Doyle, 281 F.2d 304. 309 (9th

21

Cir.1960) (fraud on the court requires "an unconscionable plan or scheme which is designed to
improperly influence the court in its decision") (citing Hazel-Atlas, 322 U.S. 238. 64 S.Ct. 997).
An "indispensable" element is that the fraud "prevented a party from presenting his
case." Reintjes, 71 F.3d at 48 (citing Chicago, R.I. & P. Ry. v. Callicotte, 267 F. 799, 810 (8th
Cir.1920)). Second, the perpetrator of the fraud must possess a sufficient mental state. One
list of essential elements requires the fraudulent conduct to be "intentionally false, willfully blind
to the truth, or in reckless disregard for the truth . . . Demjanjuk v. Petrovsky, 10 F.3d 338. 348
(6th Cir.1993); cf Sununuv. Philippine Airlines, Inc., 638 F.Supp.2d 35, 41 (D.D.C.2009) (listing
knowledge of falsity and intent to deceive as elements of common law fraud). Third, the
extraordinary step of setting aside a judgment requires "clear and convincing" evidence of
fraud on the court. Shepherd v. Am. Broad. Cos., 62 F.3d 1469. 1476-77 (D.C.Cir.1995).”
Bowie v. Maddox, 677 F. Supp. 2d 276, 278 (D.D.C. 2010).
The record is very clear that Schum was not aware of the illegal foreign lender, BNLI,
until the fall of 2012. Schum did everything necessary to prove to the courts below the fraud on
the court was the result of Schulte’s deception by fabricating evidence in the bankruptcy
proceeding that began the unconscionable scheme which improperly influenced the courts’
decisions in the (1) RRI bankruptcy, (2) The Watch bankruptcy, (3) the County Court proceeding
against Schum resulting in the judgment and finally (4) at the FCC regarding the license
transfers. The attorneys representing RRI and The Watch that participated in the bankruptcy
proceeding advised Schum to finish with the FCC process prior to bringing his motion before the
bankruptcy court. Schum did just that, a process that took from February 23, 2006 until May 29,
2018.
In its opinion below, the Fifth Circuit ignored the well-established precedent of the other
Circuit Courts and the Supreme Court that fraud on the court claims are not time-barred. Instead,
the Fifth Circuit applied time-bars from other rules that cannot be applied. The fact that fraud on
the court is involved makes Federal Rules of Civil Procedure Rule 60(d)(3) take precedence over
all other rules including U.S.C. §§ 350(b) or 502(j) or § 1144 as cited by the Fifth Circuit in
seeking to time-bar Schum’s motion.

22

The courts’ below ruling that Schum’s fraud on the court motion is time-barred would
have been rejected in the Second, Third, Ninth, Tenth and D.C. Circuits as well as historically by
this Court. The vast majority of attorney s would not even consider risking their reputation, law
license and career by fabricating evidence and filing false documents in the process of
committing fraud on the court. As was obvious in the case at hand, after they saw how easy it
was to commit fraud on the court in the RRI bankruptcy, the other attorneys were emboldened
and thought nothing of carrying the fraud into other legal settings. As Schum is pro se, there are
currently two attorneys with Schulte and three with V&E on this case. In the past there have been
at least two others with Schulte and four others with V&E and none of the attorneys did what
was required contractually, ethically or professionally.
Allowing this ruling to stand is not just wrong in the current case but sends the wrong
message to attorneys and the courts. Allowing attorneys to commit fraud on the court corrupts
the judicial process in a way that has been rejected by this Court and the other Circuit Courts.
CONCLUSION
The petition for a writ of certiorari should be granted.

Respectfully SutynittgcC

David A. Schum, Pro Se
4149 Lovers Lane, Apt. C
Dallas, Texas 75225
469-513-2177
Email: watchradio@aol.com
September 16, 2020

23

